September 3, 2010

MANUEL TREVINO, JR.
PLANT MANAGER, AUSTIN PROCESSING AND DISTRIBUTION CENTER

SUBJECT: Audit Report – Color-Coding of Standard Mail and Mail Condition Reporting
        at the Austin Processing and Distribution Center
        (Report Number NO-AR-10-010)

This report presents the results of our audit of color-coding of Standard Mail® and mail
condition reporting at the Austin, TX, Processing and Distribution Center (P&DC)
(Project Number 10XG037NO000). The objectives were to determine whether
employees properly color-coded the mail and accurately counted and reported
delayed mail volumes. This is the fifth in a series of self-initiated reviews addressing the
color-code policy for Standard Mail. This audit addresses operational risk. See
Appendix A for additional information about this audit.




For Standard Mail, the color-coding process involves using a series of colored tags to
ensure efficient processing in a first-in first-out (FIFO) sequence to meet processing,
dispatch, and delivery targets. A color-coded tag is assigned based on the day of the
week the mail arrives on U.S. Postal Service premises and denotes the target clearance
day from the facility or delivery day of the mail. Mail condition reports summarize on-
hand and delayed mail volumes of all classes of mail at each mail processing facility.
Color-Coding of Standard Mail and Mail Condition Reporting                NO-AR-10-010
 at the Austin Processing and Distribution Center



Conclusion

The Austin P&DC was not always properly color-coding or reporting delayed mail. We
found that the Austin P&DC:

       Did not properly color-code 86 percent of the containers.

       Held mail arriving at the dock and incorrectly coded it 1 day late.

       Did not properly report delayed mail. A review of reporting during April 2010
        revealed the Austin P&DC underreported approximately 1.1 million mailpieces.

Once we brought color-coding and mail condition reporting issues to management’s
attention, they took immediate corrective action to have employees properly tag the mail
and accurately report mail conditions. We verified these actions during the last day of
our site visit.

Color-Coding of Standard Mail

Of the 408 staged Standard Mail containers reviewed at the Austin P&DC, only 55
(about 13 percent) were properly color-coded and the remaining 353 were not
color-coded in accordance with policy. Specifically:

       Color-code tags were missing from 147 containers (36 percent).

       Tags on 140 containers (34 percent) were missing the time and/or date.

     Sixty-six containers (16 percent) had the wrong color tags based on the date the
       mail entered the mail stream.

Additionally, Austin P&DC employees did not always use national standardized tags.
Employees placed colored dots on the routing slips for 91 of the 147 containers,
signifying the color the mail should be coded.

These conditions occurred due to:

     Limited color-code training and awareness of the policy.
     Limited oversight by the color-code coordinator.
     Signage not being available to assist employees in proper tagging.

Without accurate color-coding, the Postal Service cannot ensure timely processing,
dispatch, and delivery of Standard Mail. Without a date and time on the tag, the Postal
Service cannot determine whether employees processed Standard Mail using the FIFO




                                                    2
Color-Coding of Standard Mail and Mail Condition Reporting                       NO-AR-10-010
 at the Austin Processing and Distribution Center


method.1 Additionally, the Postal Service cannot readily track service standards and
accurately report mail conditions in the web-based Mail Condition Reporting System
(MCRS). Failure to accurately color-code and date the mail could also confuse delivery
units about when the mail needs to be delivered. See Appendix B for our detailed
analysis of this topic.

We recommend the Austin Processing and Distribution Center plant manager:

1. Train employees to ensure that they properly color-code Standard Mail according to
   Postal Service policy.

2. Direct the district color-code coordinator to periodically review color-code policies
   and provide program oversight.

3. Improve facility color-code signage.

Mail Condition Reporting

The Austin P&DC underreported delayed mail in some cases. Bringing these matters to
the attention of plant management resulted in proper reporting, effective May 13, 2010.

These conditions occurred because:

                                           misinterpreted the policy believing they had until
           the delivery day to process the mail before reporting it as delayed.

                                                did not adequately oversee employees performing
           the mail count.

Not properly reporting delayed volumes may prevent management from making
effective operational decisions. This could also impact customer service without
management’s knowledge. See Appendix B for our detailed analysis of this topic.

We recommend the Austin Processing and Distribution Center plant manager:

4. Provide mail condition reporting training and oversight to employees.

Management’s Comments

Management agreed with the findings and recommendations. During the audit,
management corrected the deficiencies in the processes. In addition, applicable
employees received color-code and mail condition reporting training. See Appendix D
for management’s comments, in their entirety.


1
    Mail is staged and processed based on order of receipt.




                                                              3
Color-Coding of Standard Mail and Mail Condition Reporting           NO-AR-10-010
 at the Austin Processing and Distribution Center


Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and management’s corrective actions
should resolve the issues identified in the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing, or me at 703-248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    David E. Williams, Jr.
    Susan M. LaChance
    Frank Neri
    Manuel Arguello
    Bruno L. Tristan
    Corporate Audit and Response Management




                                                    4
Color-Coding of Standard Mail and Mail Condition Reporting                                   NO-AR-10-010
 at the Austin Processing and Distribution Center


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Standard Mail is essential to the growth of the Postal Service and is a major factor in its
economic health.2 Standard Mail accounts for approximately 47 percent of all mail
volume and 26 percent of the Postal Service’s annual revenue.3 Delivering Standard
Mail timely is important for operational efficiency and customer satisfaction.

The Postal Service uses a system of color-coding to facilitate timely movement of
Standard Mail. The color-coding process requires employees to assign colors to
mailpieces based on the day of the week. This enables easy processing of mail using
the FIFO method. Management updated the color-coding policy on June 17, 2008, with
an effective date of August 29, 2008. In December 2008, management made an
additional update to the policy to clarify reporting requirements. The Postal
Accountability and Enhancement Act of 2006 requires establishment of delivery
standards for all classes of mail. While standards have not changed, the policy
maintains the integrity of color-code standards from processing to delivery. The service
standard for Standard Mail is 3-10 calendar days.




           Illustration 1:
A color-code chart, such as this
one at the Atlanta P&DC, would
provide guidance for placing the
 correct tag on incoming mail at
        the Austin P&DC.




Policies and procedures for the color-coding system are set forth in the Postal
Operations Manual (POM), Section 458. The Postal Service is revising the POM to
reflect changes in the new color-coding policy.

In support of the updated policy, management also made changes to the MCRS
categories. Categories such as “Plan Failure,” “Delayed Processing,” and “Delayed
Dispatch” are no longer reported for Standard Mail. The term “Delayed Mail Flow for

2
  Standard Mail weighs less than 16 ounces and includes circulars, pamphlets, catalogs, newsletters, direct mail, and
merchandise.
3
  U.S. Postal Service Annual Report, 2009.




                                                          5
Color-Coding of Standard Mail and Mail Condition Reporting                NO-AR-10-010
 at the Austin Processing and Distribution Center


Standard Mail” is a new MCRS definition and is used for mail that is not processed,
finalized or dispatched from a specific operation or facility to ensure delivery by the
programmed delivery day.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine whether employees properly color-coded the mail and
accurately counted and reported delayed mail volumes.

This is the fifth in a series of self-initiated audits addressing color-coding and mail
reporting at P&DCs nationwide. We selected the Austin P&DC based on historical
delayed mail reporting volumes.

To determine whether color-coding procedures conformed to the national color-coding
policy, we observed the color-coding of Standard Mail at the Austin P&DC during the
week of May 10, 2010. We observed mail color-coded at other facilities, including the
Dallas Network Distribution Center (NDC)4 and Austin Annex. Additionally, we verified
mail counts and reviewed count data reported in MCRS. We interviewed Postal Service
officials and employees, photographed operations, and observed conditions.

We conducted this performance audit from May through September 2010 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management officials on May 13, 2010, and included
their comments where appropriate.

We assessed the reliability of Enterprise Data Warehouse and Web Mail Condition
Reporting System (webMCRS also referred to as MCRS) data through comparing hard
copy data to computer-generated data and by interviewing Postal Service officials. We
determined that the data were sufficiently reliable for the purposes of this report.




4
    Formerly the Dallas Bulk Mail Center.




                                                    6
    Color-Coding of Standard Mail and Mail Condition Reporting                   NO-AR-10-010
     at the Austin Processing and Distribution Center


    PRIOR AUDIT COVERAGE

                                              Final
                              Report         Report
    Report Title             Number           Date Report                   Results
Color-Coding of            NO-AR-10-006 6/9/2010        Opportunities exist for the Northland
Standard Mail and                                       District to improve color-coding
Mail Condition                                          procedures as well as procedures for
Reporting in the                                        counting and reporting delayed mail.
Northland District                                      Management agreed with the report
                                                        recommendations.
Color-Coding of            NO-AR-10-005 3/312010        Opportunities exist for the Albany
Standard Mail and                                       P&DC to improve color-coding
Mail Condition                                          procedures as well as procedures for
Reporting at the                                        counting and reporting delayed mail.
Albany Processing                                       Management agreed with the report
and Distribution                                        recommendations.
Center
Color-Coding of            NO-AR-09-008 8/6/2009                 Opportunities exist for the Santa
Standard Mail and                                                Clarita P&DC to improve procedures
Mail Condition                                                   for color-coding and reporting of
Reporting at the                                                 delayed mail to reflect the
Santa Clarita                                                    color-coding and delayed mail
Processing and                                                   reporting requirements as of
Distribution Center                                              August 29, 2008. Management agreed
                                                                 with the report recommendations.
Color-Coding of            NO-AR-09-006 6/10/           2009     Opportunities exist for the West Palm
Standard Mail and                                                Beach P&DC to improve procedures
Mail Condition                                                   for color-coding and reporting delayed
Reporting at the                                                 mail to reflect the color-coding and
West Palm Beach                                                  delayed mail reporting requirements
Processing and                                                   as of August 29, 2008. Management
Distribution Center                                              agreed with the report
                                                                 recommendations.




                                                        7
Color-Coding of Standard Mail and Mail Condition Reporting            NO-AR-10-010
 at the Austin Processing and Distribution Center


                             APPENDIX B: DETAILED ANALYSIS

Color-Coding of Standard Mail

During the week of May 10, 2010, we reviewed 408 containers of Standard Mail at the
Austin P&DC for compliance with the national color-coding policy. We found that only 55
(about 13 percent) were properly color-coded and the remaining 353 were not
color-coded in accordance with policy. Specifically:

       Color-code tags were missing from 147 containers (36 percent).

       Tags on 140 containers (34 percent) were missing the time and/or date (see
        Illustration 2).

     Sixty-six containers (16 percent) had the wrong color tags based on the date the
       mail entered the mail stream.

See Appendix C for our observations.




         Illustration 2:
A color-code tag observed at the
Austin P&DC on Tuesday, May 11,
 2010, was missing the time and
              date.




Additionally, in an effort to save paper, the Austin P&DC did not always use the national
standardized tag. On 91 of the 147 containers without standardized color-code tags,
employees placed colored dots on the routing slip signifying the color the mail should be
coded (see Illustration 3).




                                                    8
Color-Coding of Standard Mail and Mail Condition Reporting             NO-AR-10-010
 at the Austin Processing and Distribution Center




           Illustration 3:
 The small violet dot stuck on the
         routing slip of this
 all-purpose container is intended
        as a color-code tag.




These conditions occurred due to:

     Lack of color-code training for all employees (only 30 percent of mail handlers
      received the training).

     Limited oversight of the color-code coordinator.

     No signage to assist employees in proper labeling (see Illustration 4).




           Illustration 4:
   The only color-code poster
 available for reference by Austin
P&DC employees had collapsed in
              its frame.




A review of training records indicated that not all Austin P&DC employees involved in
these operations had received the national color-code training provided through the
Postal Employee Development Center. Specifically:

       Only 16 of the 25 Austin P&DC managers and supervisors (about 64 percent)
        had received documented color-code training.



                                                    9
Color-Coding of Standard Mail and Mail Condition Reporting                   NO-AR-10-010
 at the Austin Processing and Distribution Center



       Only 35 of the 118 Austin P&DC mail handlers (about 30 percent) had received
        documented color-code training.

According to the national color-coding policy for Standard Mail, color-coding procedures
provide a guide to maintaining service goals for Standard Mail. All Standard Mail will be
color-coded and Standard Mail without color-coded tags will be coded the same color as
the oldest mail in the unit at the time of its discovery. Additionally, all color-code tags will
comply with a standardized national format which will require employees to enter the
date and time of mail entry on each tag. The delivery color-code is based on the original
entry date and time of the mail, not the processing date or time. Additionally, the P&DC
must develop local procedures to ensure they maintain the correct color-code for all
mail based on its arrival, even when such mail is entered into mechanized or automated
sorting systems.

Without accurate color-coding, the Postal Service cannot ensure timely processing,
dispatch, and delivery of Standard Mail. Without a date and time on the tag, the Postal
Service cannot determine whether employees processed Standard Mail using the FIFO
method. Additionally, the Postal Service cannot readily track service standards and
accurately report mail conditions in the web-based MCRS. Failure to accurately
color-code and date the mail could confuse delivery units about when the mail needs to
be delivered.

Mail Condition Reporting

Austin P&DC employees were not always accurately recording and reporting delayed
mail. For example, from May 11-13, 2010, we observed the Austin P&DC report 32,557
delayed Standard Mail pieces, whereas it should have reported a total of 414,894 as
delayed. Thus, the reports understated delayed mail by 382,337 mailpieces (see Table
1).

         Table 1: Mail Condition Reporting Observations at the Austin P&DC

                       On-Hand Standard           Reported        Actual
        Date             Mail Reported            Delayed        Delayed      Underreported

     5/11/2010 1,030,245                                     0     108,603             108,603
     5/12/2010 832,237                                   6,665     275,824             269,159
     5/13/2010 509,056                                  25,892      30,467               4,575
       Total 2,371,538                                  32,557     414,894             382,337

To confirm our observations, we compared the data collection sheets to MCRS reports
for all of April 2010. During this time, the Austin P&DC underreported delayed mail flow
by approximately 1.1 million mailpieces (see Table 2). This amount represents over four
times more than originally reported. Bringing these issues to the attention of plant
management resulted in the proper reporting of delayed mail.



                                                   10
Color-Coding of Standard Mail and Mail Condition Reporting                  NO-AR-10-010
 at the Austin Processing and Distribution Center


                     Table 2: Delayed Mail Flow Reporting, April 2010

                             Standard Mail Condition Reporting
                    On-Hand      Reported                           Actual      Percentage of
   April 2010       Volume        Delayed     Underreported        Delayed         Actual
                                   Total                            Total         Delayed
       1 440,227                           -            11,054         11,054           2.5%
       2 557,496                           -            78,760         78,760          14.1%
       3 506,896                      8,507               4,906        13,413           2.6%
       4 601,972                           -          122,898        122,898           20.4%
       5 364,311                           -            61,102         61,102          16.8%
       6 441,998                           -          133,097        133,097           30.1%
       7 653,771                     30,117             35,592         65,709          10.1%
       8 924,945                           -            56,754         56,754           6.1%
       9 542,076                      6,336             44,162         50,498           9.3%
      10 670,228                           -                  -             -           0.0%
      11 640,599                           -            81,306         81,306          12.7%
      12* 858,032                    44,586           (44,586)              -           0.0%
      13* 685,251                    34,026             (7,200)        26,826           3.9%
      14 858,482                     17,013               7,718        24,731           2.9%
      15 662,408                           -            74,256         74,256          11.2%
      16 742,725                     11,284             35,853         47,137           6.3%
      17 700,011                     10,750                   -        10,750           1.5%
      18 546,086                           -            79,311         79,311          14.5%
      19 682,552                     51,040             29,985         81,025          11.9%
      20 629,425                     18,069               5,817        23,886           3.8%
      21 590,116                      1,056             30,034         31,090           5.3%
      22 613,134                           -            34,207         34,207           5.6%
      23 724,048                           -            57,865         57,865           8.0%
      24 796,474                           -                  -             -           0.0%
      25* 865,645                          -                  -             -           0.0%
      26 737,512                      2,836             52,048         54,884           7.4%
      27 766,980                     11,342               5,666        17,008           2.2%
      28 682,037                           -            41,349         41,349           6.1%
      29 709,292                           -            18,817         18,817           2.7%
      30 491,576                           -            48,266         48,266           9.8%
     Total        19,686,305        246,962         1,099,037      1,345,999            6.8%
 * Complete data collection sheets were not available for these dates.

A comparison of the Austin P&DC’s delayed mail volumes to similar-sized sites (Group
2 plants) showed variances. For example, in fiscal year (FY) 2009, the Austin P&DC’s
delayed volume totaled 29.4 million pieces, while the average for Group 2 plants totaled
almost 52 million pieces. See Table 3 for additional information on delayed mail
reporting over several years.




                                                   11
Color-Coding of Standard Mail and Mail Condition Reporting                                   NO-AR-10-010
 at the Austin Processing and Distribution Center


                                        Table 3: Delayed Mail Reporting

                                                       Austin P&DC
                      Priority First Class             Periodicals           Standard    Packages       Total
     FY 2006          92,303 1,363,084                  4,782,861           57,367,913     2,755     63,608,916
     FY 2007          21,131 1,997,621                  4,880,366           86,506,845      469      93,406,432
     FY 2008          74,533 280,503                    4,218,663           42,764,450     3,913     47,342,062
     FY 2009          52,586 321,829                    5,404,797           23,584,392    25,411     29,389,015

                                          Average Group 2
                      Priority First Class Periodicals    Standard                       Packages      Total
     FY 2006          47,705 3,165,873      5,928,385    50,560,476                       67,267 59,764,183
     FY 2007          28,141 2,476,731      3,459,299    35,553,272                       61,921 41,575,781
     FY 2008          38,876 1,736,541      2,428,128    29,342,070                       53,846 33,593,118
     FY 2009          38,014 1,806,667      1,981,172    48,119,910                       10,328 51,953,474

These conditions occurred because:

        The employees counting the mail misinterpreted the policy believing they had
         until the delivery day to process it before reporting it as delayed.

        In-Plant Support employees did not adequately oversee employees performing
         the mail count.

According to the national color-coding policy and the policy for mail condition reporting,
reporting delayed mail flow for Standard Mail is necessary to provide an accurate
snapshot of daily facility conditions for Standard Mail. Additionally, employees are
required to report destinating 5-digit, non-delivery point sequenced mail5 as delayed 1
day before the scheduled delivery day. Finally, the “oldest date” for Standard Mail is the
oldest date recorded on any color-code tag affixed to a Standard Mail container at the
time of the count.

The Postal Service’s Network Operations Website, Processing Operations, In-Plant
Training, requires Operations support specialists (OSS) to consolidate and review data
from operations to ensure the integrity of the information collected. Additionally, the
OSS must audit MCRS for compliance with color-coding policies by checking volume
numbers from the MCRS report against manual counts (verifying counts with data
collectors).

Not properly reporting delayed mail may prevent management from making effective
operational decisions. This could also impact customer service without management’s
knowledge.

5
    Destinating 5-digit mail requires additional sorting to the carrier route.




                                                                12
   Color-Coding of Standard Mail and Mail Condition Reporting                      NO-AR-10-010
    at the Austin Processing and Distribution Center


              APPENDIX C: COLOR-CODING OBSERVATIONS OF STAGED MAIL

                                              Containers    Missing   Incomplete   Wrong
 Date      Time             Location                                                         Tag Origin
                                              Observed       Tags        Tags      Color
11-May   5:12 AM    DBCS #9                       1            1
11-May   5:15 AM    DBCS #9                        2            2
11-May   5:16 AM    DBCS #9                        1            1
11-May   5:18 AM    Prep Station                   6            5         1                Austin P&DC
11-May   5:22 AM    40657705                      10                                       Austin P&DC
11-May 5:22    AM   40657705 22                                          11                Dallas NDC
11-May 5:26    AM   Dock                           4            2
11-May   5:28 AM    Dock                           1                      1                Dallas NDC
11-May   5:32 AM    DIOSS 26                       4            4
11-May   5:32 AM    DIOSS 26                       2            2
11-May   5:37 AM    DIOSS 26                       4                                 4
11-May   5:39 AM    DIOSS 26                       4
11-May   6:16 AM    DIOSS 26                       1            1
11-May   6:18 AM    DIOSS 26                       3            3                          Annex-Dots
11-May 9:06    AM   Annex                          1                                 1
11-May   3:08 PM    Door 34                        8                                 8     Dallas NDC
11-May   3:15 PM    Door 34                        1                      1                Dallas NDC
11-May   3:16 PM    Door 34                        7                      7                Dallas NDC
11-May   3:19 PM    Door 47                        3                                 3     Austin P&DC
11-May   3:24 PM    Doors 50-52                   32                     16         16     Austin P&DC
11-May   3:26 PM    AFS 100                        1                                 1     Austin P&DC
11-May   3:28 PM    AFS 100                        4                                 4     Austin P&DC
11-May   3:31 PM    AFS 100                        1            1
11-May   3:33 PM    AFS 100                       13            13                         Color Dots
11-May   3:38 PM    Staging Area 6                11                                11     Austin P&DC
11-May   3:43 PM    Staging Area 1                 1            1                          Color Dots
11-May   3:47 PM    Mail Prep                      7            7                          Color Dots
11-May   3:54 PM    Prep Area 1-4                 32            22       10
11-May   3:55 PM    Staging Area                   1                      1                Annex
11-May   3:59 PM    Prep Station 1                 2                      2                Annex
11-May   4:00 PM    Prep Station 1                 6            2                          Color Dots
12-May   5:23 AM    Docks                          1                                 1     Austin P&DC
12-May   5:25 AM    Docks                          1            1                          Annex Color Dot
12-May   5:28 AM    Dispatch                       3                                 3     San Antonio
12-May   5:06 AM    DBCS 1                         2                      2                Austin P&DC
12-May   5:11 AM    DBCS 3                         1                      1                Austin P&DC
12-May   5:13 AM    DBCS 12                        2                      2                Austin P&DC




                                                       13
   Color-Coding of Standard Mail and Mail Condition Reporting                        NO-AR-10-010
    at the Austin Processing and Distribution Center


                                              Containers     Missing    Incomplete   Wrong
 Date      Time     Location                                                                 Tag Origin
                                              Observed        Tags         Tags      Color
12-May   5:17 AM    DBCS 10                       1             1
12-May   5:17 AM    Political Mail Staging        10                       10                Austin P&DC
12-May   5:19 AM    Prep Area 2                    1                        1                Austin P&DC
12-May   5:28 AM    Dispatch                       3                                   3     San Antonio
12-May   5:06 AM    DBCS 1                         2                        2                Austin P&DC
12-May   5:11 AM    DBCS 3                         1                        1                Austin P&DC
12-May   5:13 AM    DBCS 12                        2                        2                Austin P&DC
12-May   5:17 AM    DBCS 10                        1             1
12-May   5:17 AM    Political Mail Staging        10                       10                Austin P&DC
12-May   5:19 AM    Prep Area 2                    1                        1                Austin P&DC
12-May   5:22 AM    Prep Area 2                    1                        1                Austin P&DC
12-May   5:24 AM    Area Staging                  26                       26                Dallas NDC
12-May   5:26 AM    Area Staging                   2              2
12-May   5:29 AM    Area Staging                   3                        3                Dallas NDC
12-May   6:11 AM    Prep Area 1                    4             4                           Austin P&DC
12-May   6:14 AM    Prep Area 1                    2             1          1                Austin P&DC
          10:06
12-May              Flats Staging Area            53             53                          Color Dots
            AM
12-May   5:07 AM    DBCS 1                         2                        2                Austin P&DC
12-May   5:12 AM    DBCS 3                         1                        1                Austin P&DC
12-May   5:14 AM    DBCS 12                        2                        2                Austin P&DC
12-May   5:16 AM    DBCS 10                        4             2          2                Austin P&DC
12-May   5:20 AM    Political Mail Staging        10             1          9                Austin P&DC
12-May   5:21 AM    Mail Prep                      1             1                           Austin P&DC
12-May   5:28 AM    406577                        26                                   8     Dallas NDC
12-May 5:30   AM    Primary                        3              2
12-May   5:30 AM    Primary                        3                                   3     Austin P&DC
12-May   6:11 AM    Prep 1                         4              4                          Annex Color Dot
12-May   6:14 AM    Primary 1                      3              1         1                Annex Color Dot
12-May   6:10 AM    Flats Staging Area             2              2                          Color Dots
13-May   9:40 AM    Column O3 G                    3                                         Austin P&DC
                                                                                             Annex Color
13-May 9:40   AM    40457786                       6              4         2
                                                                                             Dots
13-May   9:50 AM    Political Mail Staging         6                        5                Austin P&DC
13-May   9:50 AM    Political Mail Staging         3                        3                Austin P&DC
Totals                                            408            147       140        66             353
                         Error Percent                          36.0%     34.3%      16.2%          86.5%




                                                        14
Color-Coding of Standard Mail and Mail Condition Reporting   NO-AR-10-010
 at the Austin Processing and Distribution Center



                        APPENDIX D: MANAGEMENT’S COMMENTS




                                                   15
Color-Coding of Standard Mail and Mail Condition Reporting   NO-AR-10-010
 at the Austin Processing and Distribution Center




                                                   16
